No.

IN THE
SUPREME COURT OF THE UNITED STATES

Kerrin Barrett

— PETITIONER

VS.
PAE GOVERNMENT SERVICES, INC.;
AREYAL HALL, Officer, Arlington County
Police Department; WILLIAM K. LIETZAU;
SEAN HORNER; SHANEDRIA WILBORN;
BRIAN GALWAY; JOSHUA LUZIER,
Officer,

— RESPONDENT(S)

PROOF OF SERVICE
Kerrin Barrett
___________________ , do swear or declare that on this date,
February 12
, 2021 , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
Charles M. Elmer, BANCROFT, MCGAVIN, JACKSON LEWIS P C., 10701 Parkridge Boulevard, Suite 300, Reston, Virginia 20191
Ara L. Tramblian, HORVATH & JUDKINS, P.C., 9990 Fairfax Boulevard, Suite 400, Fairfax, Virginia 22030
Crystal L. Tyler and Meredith F. Bergeson, JACKSON LEWIS P.C., Post Office Box 85068, Richmond, Virginia 23285
Ryah'Samuel,srCOUNTYiATTORNEY-’S'OFFICEf2100 Clarendon Boulevard,“Suite 403,-Arlington,Wirginia 22201

I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 12

, 20_2i

sa

